CERTIFICATE OF SERVICE

On August 26 2021, the undersigned petitioner served the following
document: Petition for Writ of Certiorari on,
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Mr. Scott K. Porsborg
SMITH & PORSBORG
P.Q. Box 460
122 East Broadway Avenue
Bismarck, ND 58501
Mr. Brian D. Schmidt
SMITH & BAKKE
P.O. Box 460
122 East Broadway Avenue
Bismarck, ND 58501
by delivering a copy by the U.S. Postal Service.

Flomo Tealeh
1414 S. 3rd Street
Minneapolis, MN 55454
612-601-3027

